No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
ADAM FRASCH,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida First District Court of Appeal

PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

i
A. QUESTION PRESENTED FOR REVIEW
Whether a criminal defendant is entitled to an
evidentiary hearing to determine if a violation has
occurred pursuant to Brady v. Maryland, 373 U.S. 83
(1963).

ii
B. PARTIES INVOLVED
The parties involved are identified in the style of
the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW. . . i

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents . . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities . . . . . . . . . . v

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

G.

STATEMENT OF THE CASE AND
STATEMENT OF THE TRIAL FACTS . . . . . 2

H.

REASON FOR GRANTING THE WRIT . . . 40
The question presented is important and
the Florida appellate court’s decision in
this case is in conflict with federal circuit
court decisions as to whether a criminal
defendant is entitled to an evidentiary
hearing to determine if a violation has

iv
occurred pursuant to Brady v. Maryland,
373 U.S. 83 (1963) . . . . . . . . . . . . . . . . . . . . . 40
I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 60

v
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Brady v. Maryland, 373 U.S. 83 (1963). . . . . . passim
Frasch v. State,
279 So. 3d 844 (Fla. 1st DCA 2019) . . . . . . . . 1
Gov’t of Virgin Islands v. Martinez,
780 F.2d 302 (3d Cir. 1985). . . . . . . . . . . 53-54
Kyles v. Whitley, 514 U.S. 419 (1995) . . . . . . . . . . . 56
Lopez v. Massachusetts,
480 F.3d 591 (1st Cir. 2007) . . . . . . . . . . . . . 47
State v. Huggins, 788 So. 2d 238 (Fla. 2001) . . . . . 47
Strickler v. Greene, 527 U.S. 263 (1999) . . . . . . 55-56
United States v. Alexander,
748 F.2d 185 (4th Cir. 1984) . . . . . . . . . . . . . 53
United States v. Bagley,
473 U.S. 667 (1985) . . . . . . . . . . . . . . . . . . . . 55
United States v. Dansker,
565 F.2d 1262 (3d Cir. 1977). . . . . . . . . . 53-54
United States v. Dimas,
3 F.3d 1015 (7th Cir. 1993) . . . . . . . . . . . . . . 57

vi
United States v. Palivos,
486 F.3d 250 (7th Cir. 2007) . . . . . . . . . . . . . 56
United States v. Perdomo,
929 F.2d 967 (3d Cir. 1991). . . . . . . . 52-55, 57
United States v. Salem,
578 F.3d 682 (7th Cir. 2009) . . . . . . . . . . 55-58
United States v. Silva,
71 F.3d 667 (7th Cir. 1995) . . . . . . . . . . . . . . 56
Youngblood v. West Virginia,
547 U.S. 867 (2006) . . . . . . . . . . . . . . . . . 55-56

b.

Statutes

28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

c.

Other

Fla. R. Crim. P. 3.600(c). . . . . . . . . . . . . . . . . . . . . . 45
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . 2, 46
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . 2, 46

1
The Petitioner, ADAM FRASCH, requests that
the Court issue its writ of certiorari to review the
judgment of the Florida First District Court of Appeal
entered in this case on September 25, 2019. (A-5). 1

D. CITATION TO OPINION BELOW
Frasch v. State, 279 So. 3d 844 (Fla. 1st DCA
2019).2

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1257 to review the final judgment of the
Florida First District Court of Appeal.

1

References to the appendix to this petition will be made

by the designation “A” followed by the appropriate page number.
2

On June 22, 2020, the Florida Supreme Court issued an

order declining to accept jurisdiction in this case. (A-3).

2
F.
CONSTITUTIONAL
INVOLVED

PROVISIONS

The due process clauses of the Fifth and
Fourteenth Amendments, as interpreted by the Court
in Brady v. Maryland, 373 U.S. 83, 87 (1963), and its
progeny,

require

the

prosecution

to

disclose

exculpatory evidence that “is material either to guilt or
to punishment.”

G. STATEMENT OF THE CASE AND
STATEMENT OF THE TRIAL FACTS
1.

Statement of the case.

The Petitioner was charged in Florida state
court (Leon County) with the first-degree murder of his
wife, Samira Frasch. The offense allegedly occurred on
February 22, 2014. At trial, the theory of defense was
that the Petitioner was not in Leon County at the time
of Mrs. Frasch’s death and therefore he did not kill her.

3
The case proceeded to trial in January of 2017.
At the conclusion of the trial, the jury found the
Petitioner guilty as charged.
Immediately, after the jury returned its guilty
verdict, the trial court announced that it intended to
proceed with the sentencing hearing because life
imprisonment was the mandatory/required sentence
(i.e., the trial court had no discretion to impose any
sentence other than life imprisonment as the State had
not sought the death penalty). The prosecutor then
announced that Mrs. Frasch’s family wanted to make
a statement prior to the trial court imposing the
sentence and the prosecutor proceeded to read the
following statement from Mrs. Frasch’s family:
For us, the Frasch – well, it says,
For us, the Samira family [referencing
the victim’s first name], we hold [the
Petitioner] responsible for the death of
Samira. According to Samira, she was

4
very afraid that [the Petitioner] would
hurt her, because she had noticed the
presence of someone prowling in their
home nights before his (sic) death.
As [the Petitioner] came to see the
house, certainly she had to tell him her
fears. So, why did [the Petitioner] not do
anything to avoid the worst? At least he
would have checked the surveillance
cameras in their home.
Why was Samira not with him on
the day of her death when they went to
the beach? Samira would not have
accepted that [the Petitioner] was busy.
We all know that [the Petitioner] had
abducted their two girls and left with his
mistress, so why the day of her death did
[the Petitioner] supposedly meet [the
mother of one of his other children] en
route before going to the beach?
Samira’s body was found in the
pool. Certainly, it does not – it was not
there to swim that day if she would part
with her children and her husband at the
beach. Why did [the Petitioner] rush to
cremate the body of Samira?
There are so many that lead us to
say that [the Petitioner] is responsible for
the murder of Samira. Whether he
murdered her or he is the sponsor. And
we are certain that he could never take
care of the two daughters he had with

5
Samira.
(A-32-34) (emphasis added).
Following the trial, defense counsel filed a
timely motion for a new trial (A-37) and argued that
the “family statement” read at the conclusion of the
trial amounted to “new evidence” that the defense
team was not aware of prior to the statement being
read in court. The Petitioner also argued that the
“family statement” amounted to favorable evidence
that the State failed to disclose to the defense in
violation of Brady. The trial court denied the motion
for a new trial without first holding an evidentiary
hearing on the motion. (A-46).
On direct appeal, the Petitioner argued that the
trial court erred by denying the motion for a new trial
without first holding an evidentiary hearing.

The

Florida First District Court of Appeal subsequently

6
affirmed the Petitioner’s conviction and sentence and
the trial court’s order denying the motion for new trial.
(A-5).
2.

Statement of the trial facts.

a.

The State’s Case in Chief.

Gerald Gardner. Mr. Gardner stated that he
is a type of handyman who does landscaping and
pressure washing. (T-38-39).3 Mr. Gardner testified
that as of 2014, he had been working for the Frasch
family for approximately five years.

(T-39).

Mr.

Gardner stated that on February 22, 2014, he went to
the Frasch residence (8374 Inverness Drive in the

3

References to the trial transcripts will be made by the

designation “T” followed by the appropriate page number. The
trial transcripts are not included in the appendix to this petition,
but should the Court so request, undersigned counsel will submit
a supplemental appendix containing the trial transcripts.

7
Golden Eagle subdivision) to finish a pressure washing
job that he had started the previous day. (T-40).4 Mr.
Gardner testified that he did not have a car, and
therefore he made arrangements for Samira Frasch5 to
pick him up on the morning of February 22, 2014, but
he said that the plan changed because he was able to
4

Mr. Gardner claimed that Samira Frasch was with him

at the house during the entire six-to-seven hour period that he
was at the house on February 21, 2014. (T-43, 75-76). The record
establishes that Mrs. Frasch was not present at the house the
entire day on February 21, 2014 (T-357-358), and therefore
defense counsel argued during closing arguments that Mr.
Gardner’s testimony was not truthful. (T-770) (“I was out there
[pressure washing] the whole day. And she was there? Yes, sir.
Did you ever see Dr. Frasch? No, I didn’t. You didn’t see them
leave at all? No, I didn’t. False, false, false. Why? I don’t
know.”).
5

Mr. Gardner stated that Mrs. Frasch is from

Madagascar. (T-62).

8
get a ride with his son’s mother; Mr. Gardner said that
he called Mrs. Frasch on the morning of February 22,
2014 (between 9 a.m. and 10 a.m.), to tell her that he
no longer needed a ride, but he said that she did not
answer her phone. (T-43-44).
Mr. Gardner stated that he and his son arrived
at the Frasch residence on February 22, 2014, shortly
before 11 a.m. (T-47-48).6 Mr. Gardner testified that
when he arrived, he observed Mrs. Frasch’s vehicle (a
“Hummer); Mr. Gardner said that the vehicle is white,
but he acknowledged that the inside of the vehicle is
black and he said that when the tailgate is down and
are you are looking down at it, you can see black
inside. (T-50-51, 75). Mr. Gardner stated that after he

6

Mr. Gardner indicated that the vehicle that he drove in

to get to the Frasch residence on the morning of February 22,
2014, was a white Ford Taurus. (T-47).

9
arrived at the house, he rang the doorbell, but he said
no one answered so he walked to the back of the house
to finish the pressure washing project that he had
started the day before.

(T-52-53).

Mr. Gardner

testified that when he got to the back of the house, he
observed Mrs. Frasch in the bottom of the pool. (T-53).
Mr. Gardner stated that after he observed Mrs. Frasch
in the pool, he ran to the front of the house and called
911. (T-59). Mr. Gardner testified that when he was
at the back of the house, he observed (1) the Fraschs’
dog outside by the pool, (2) a door at the back of the
house that was open, and (3) a bottle of Fantastic
brand cleaning solution. (T-57-59). At the conclusion
of Mr. Gardner’s testimony, the State played the
recording of the 911 call that Mr. Gardner made on
February 22, 2014. (T-70-73).
Gerald Gardner, Jr.. Gerald Gardner’s son,

10
who was seventeen years old at the time of his
testimony, stated that he was with his father on
February 22, 2014, when they found Samira Frasch at
the bottom of the pool. (T-82-84).
Richard Womble. Mr. Womble, a deputy with
the Leon County Sheriff’s Office, testified that he
responded to the Frasch residence shortly after 11 a.m.
on February 22, 2014. (T-85). Deputy Womble stated
that when he arrived at the house, he came into
contact with Gerald Gardner and his son and then he
observed a pair of shoes near the step of the pool and
“a body [Samira Frasch] at the bottom of the deep end
of the pool.” (T-86). Deputy Womble testified that
Mrs. Frasch was wearing “a leopard looking robe that
was tied around her[], but it was opened.” (T-86).
Todd Watkins. Mr. Watkins, a firefighter/EMT
with the Tallahassee Fire Department, testified that

11
he responded to the Frasch residence on February 22,
2014.

(T-91).

Mr. Watkins stated that when he

arrived at the house, he observed Samira Frasch at the
bottom of the pool and he said that he dove into the
pool to pull her out. (T-92).7 Mr. Watkins testified that
the pool water was “very cold.” (T-92). Mr. Watkins
stated that once Mrs. Frasch was removed from the
pool, he and other first responders began to administer
CPR, but he said that Mrs. Frasch did not show any
signs of life. (T-94-95). Mr. Watkins testified that
Mrs. Frasch was subsequently transported to the
hospital. (T-96).
On cross-examination, Mr. Watkins stated that
when he removed Mrs. Frasch from the pool, “[r]igor

7

Mr. Watkins said that it is possible that he caused

scrapings or abrasions to Mrs. Frasch’s body when she was pulled
out of the pool. (T-93).

12
had not set in” (i.e., he confirmed that she was “loose
and pliable”). (T-99).
Joshua Stubbs.

Mr. Stubbs, a paramedic,

testified that he responded to the Frasch residence on
February 22, 2014, in response to a possible drowning.
(T-115-116). Mr. Stubbs stated that when he arrived
at the scene, Samira Frasch had already been pulled
out of the pool and he said that he assisted in
resuscitation efforts and subsequently transported her
to the hospital. (T-116). Mr. Stubbs testified that Mrs.
Frasch

“remained

in

asystole

and

remained

unresponsive throughout the transport” to the hospital
and he said that he did not observe any signs of life.
(T-118).
Michael Glaze.

Dr. Glaze, an emergency

physician, testified that Samira Frasch arrived at the
emergency room at approximately 12:10 p.m. on

13
February 22, 2014. (T-125-126). Dr. Glaze stated that
after Mrs. Frasch arrived at the hospital, there was an
attempt to obtain her body temperature, but her
temperature was “undetectable” (i.e., it was below
eighty degrees). (T-126-127). Dr. Glaze testified that
Mrs. Frasch was pronounced dead at 12:19 p.m. (T127).
On cross-examination, Dr. Glaze stated that he
did not see that Mrs. Frasch’s hands had wrinkling or
pruning (which he described as what happens from
“staying in the tub too long”). (T-128-129).
John Kellerman. Mr. Kellerman, a detective
with the Leon County Sheriff’s Office, testified that he
responded to the hospital on February 22, 2014, after
Samira Frasch was pronounced dead and he said that
he took photographs of her (and during Detective
Kellerman’s

testimony,

the

photographs

were

14
introduced into evidence).

(T-131-132).

Detective

Kellerman stated that “[t]here were small injuries on
the body that were documented,” such as a scratch on
her thumb, bruising on her arm, and small bloodstains
on the fingertips of her right hand. (T-133-134).
Carol Bass. Mrs. Bass stated that in February
of 2014, she lived next door to the Frasch residence.
(T-136). Mrs. Bass testified that at approximately 7:15
a.m. on the morning of February 22, 2014, she heard “a
car alarm go off” in the vicinity of the Frasch residence
and she looked outside her window toward the Frasch
residence and she saw a “dark SUV” and “a person over
there loading up the back” of the vehicle. (T-138-139).
Mrs. Bass stated that the person she observed “loading
up” the car was “a tall person that had a red shirt and
dark curly hair” and she said the person “w[as]n’t
African-American.” (T-140). Mrs. Bass testified that

15
she was not close enough to the person to determine
whether it was the Petitioner. (T-141).
Farrell Bass. Mr. Bass stated that in February
of 2014, he lived next door to the Frasch residence. (T147-148).

Mr. Bass testified that on February 22,

2014, he was in his yard gardening and he observed a
black man “go around the corner of the house toward
the pool area,” he heard the man say “oh, my God,” and
then he saw the man move toward the front of the
house.

(T-147-150).

Mr. Bass stated that he had

previously seen the man at the Frasch residence doing
maintenance work. (T-150). Mr. Bass testified that he
had been in his yard gardening for approximately
fifteen to thirty minutes when he observed the
maintenance man, and he said that prior to seeing the
maintenance man, he had not seen or heard anyone
near the Frasch pool area and he did not hear the dog

16
barking. (T-151-152).
Steven Wilson.

Mr. Wilson stated that in

February of 2014, he worked for Samira Frasch for
approximately three weeks “helping around the house”
and “help[ing] with the kids”; Mr. Wilson said that he
worked a couple of hours a day at the Frasch residence.
(T-165-166, 172). Mr. Wilson said that during the time
that he worked for Mrs. Frasch, he did not see the
Petitioner take the Frasch children anywhere and he
did not observe any evidence indicating that Mrs.
Frasch and the Petitioner were reconciling. (T-166167). Mr. Wilson testified that approximately ten days
prior to the date that Mrs. Frasch died, he overheard
a telephone conversation between Mrs. Frasch and a
person whom he believed was the Petitioner, and he
said that at one point during the conversation, he

17
heard the man say “I will kill you.” (T-168-169).8
Molly Papania. Ms. Papania stated that she
was the association manager for the Golden Eagle
homeowners association from 2008 to 2015. (T-175).
Ms. Papania testified that Golden Eagle is a gated
community (i.e., there is no access by vehicle without
going through a gate), but she acknowledged that
vehicles without authorization can still enter through
the gates by “tailgating” another vehicle. (T-176-178).
Ms. Papania stated that after Samira Frasch’s body
was found, she assisted law enforcement officials in
obtaining surveillance video footage from the Golden

8

Mr. Wilson admitted that at the time of the conversation

that he overheard, he was not familiar with the Petitioner’s voice,
but he said that he believed the person Mrs. Frasch was talking
to was the Petitioner because Mrs. Frasch said to the person “you
are my husband.” (T-169-170).

18
Eagle gates for the dates February 21, 2014, and
February 22, 2014. (T-179-182). Ms. Papania testified
that the homeowners association had received
complaints about the number of cars that were often
parked at the Frasch residence (both in the driveway
and on the lawn). (T-183-184).
Luis Torres. Mr. Torres stated that he lives in
Miami and testified that he previously met the
Petitioner when the Petitioner bought a boat that he
was selling. (T-188-189). Mr. Torres said that after he
sold the boat to the Petitioner, he continued to watch
over the boat in Miami when the Petitioner was not in
Miami to use the boat (and the Petitioner paid Mr.
Torres to maintain the boat). (T-189-190). Mr. Torres
stated that the last time he talked to the Petitioner,
the Petitioner told him that his next maintenance
payment would be made in a couple of days because a

19
“serious problem” had come up. (T-191-193).
Kendale Lindsey. Mr. Lindsey, a car salesman
and an acquaintance of the Petitioner, testified that
the Petitioner is a collector of cars and he said that the
Petitioner had previously owned approximately 100
cars. (T-199-200). Mr. Lindsey stated that Samira
Frasch was “[v]ery high” maintenance and she wore
expensive clothes and spent a lot of money. (T-204).
Mr. Lindsey testified that he was notified
shortly after Mrs. Frasch’s body was discovered and he
said that he called the Petitioner (who was in Panama
City with his children) and told him “I heard some
terrible news out at your house,” but he indicated that
he did not tell the Petitioner that Mrs. Frasch was
dead because he wanted to confirm that she was
actually dead. (T-210-212, 214). Mr. Lindsey stated
that after receiving confirmation of Mrs. Frasch’s

20
death, he again called the Petitioner and informed him
that Mrs. Frasch had drowned in the pool; Mr. Lindsey
said that after hearing this news, the Petitioner began
crying. (T-212).
Justin Vann. Mr. Vann, a detective with the
Leon County Sheriff’s Office, testified that he
responded to the Frasch residence on February 22,
2014, in order to document/process the scene and
collect evidence. (T-218). During Detective Vann’s
testimony, the State introduced photographs, videos,
and evidence collected from the residence. (T-218-234).
Detective Vann stated that he did not observe anything
at the residence indicating that the house had been
robbed or that items had been taken.

(T-223).

Detective Vann acknowledged that he observed open
champagne bottles on the kitchen counter. (T-232233). Detective Vann stated that he also collected

21
items from Samira Frasch’s autopy procedure. (T-237241).

Finally, Detective Vann testified that he

collected items from the Petitioner’s vehicle (including
$5,000 in cash). (T-243-248).
Gregg Sellers. Mr. Sellers, an employee with
the Leon County Sheriff’s Office, testified that he
reviewed surveillance video footage from the Golden
Eagle subdivision that was taken in February of 2014,
and he said that the footage from 11:50 p.m. on
February 21, 2014, depicted a white Hummer passing
through the security gates, followed by a black SUV,
and the footage then depicted a man get out of the SUV
and approach the Hummer.

(T-264).

Mr. Sellers

stated that the footage from 8 a.m. on February 22,
2014, depicted a black SUV exiting the security gates,
and Mr. Sellers said that the black SUV was identified
as being the Petitioner’s vehicle. (T-265).

22
David Baldwin. Mr. Baldwin, a captain with
the Bay County Sheriff’s Office, testified that he
arrested the Petitioner in Panama City on the
afternoon of February 22, 2014. (T-271-275). Captain
Baldwin stated that at the time of the Petitioner’s
detention, the Petitioner was with his two children.
(T-274-275). Captain Baldwin testified that prior to
making contact with the Petitioner, he observed the
Petitioner “packing and getting ready to leave.” (T274).
Chad King. Mr. King, a lieutenant with the
Bay County Sheriff’s Office, testified that he
interviewed the Petitioner in Panama City on
February 22, 2014. (T-277-278). Lieutenant King
stated that during the interview, the Petitioner told
him that he and his children left Tallahassee to travel
to Panama City at approximately 8 a.m. earlier that

23
day, and the Petitioner indicated that his wife asked
him to leave with the children so that she could have
some time alone.

(T-281-282).

Lieutenant King

testified that upon being told that his wife was dead,
the Petitioner indicated that his wife may have fallen
into the pool in an attempt to catch the dog, and he
said that his wife did not know how to swim. (T-284).
Lieutenant King stated that the Petitioner also told
him that his wife had consumed several glasses of
champagne on the night of February 21, 2014. (T-284).
Bill Revell. Mr. Revell, a detective with the
Leon County Sheriff’s Office, testified that he
interviewed the Petitioner in Panama City on
February 22, 2014. (T-290-291). During Detective
Revell’s testimony, the State played the recording of
the Petitioner’s interview. (T-294-351). During the
interview, the Petitioner stated that he was with

24
Samira Frasch on February 21, 2014; she was drinking
several glasses of champagne on the evening of
February 21, 2014 (after 11 p.m.); the two engaged in
consensual sexual activity on the evening of February
21, 2014; Mrs. Frasch asked him to take the children
out of the house the following morning so that she
could have a quiet morning and sleep in; after the two
went to sleep, Mrs. Frasch woke him up and the two
argued about a woman that the Petitioner had
previously dated (but after the argument, the two went
back to sleep); and when he woke up on February 22,
2014, he and the children left in his vehicle at
approximately 8 a.m. and drove to Panama City so
that he could deal with a situation relating to his boat
that was being stored at a marina in Bay County.9

9

The Petitioner admitted during the interview that a

judge had recently awarded his wife custody of the children and

25
Lisa Flannagan. Dr. Flannagan, an associate
medical examiner, testified that she conducted the
autopsy of Samira Frasch. (T-370). Dr. Flannagan
stated that during the autopsy, she observed a bruise
on the right side of Mrs. Frasch’s face and forehead
that was consistent with an impact to her head, which
she said could have been caused by a fist and could
have been the result of multiple blows. (T-372-373).
Dr. Flannagan testified that the autopsy also revealed
a fracture of the skull on the left side of Mrs. Frasch’s
head. (T-380). Dr. Flannagan stated that the injury to
the left side of Mrs. Frasch’s head “is consistent with
her head slamming the ground, a very hard surface to
cause the fracture, which indicates something possibly
struck her from the right side to cause her body to have
such momentum to hit the ground.” (T-391).

use of their house. (T-335).

Dr.

26
Flannagan testified that a sexual assault kit was
collected as part of the autopsy.

(T-388).

Dr.

Flannagan opined that the cause of Mrs. Frasch’s
death was “blunt head trauma and drowning.” (T-389).
When asked about her opinion as to the time of Mrs.
Frasch’s death, Dr. Flannagan stated:
So, the bottom line is there is no way to
put a specific time of death. It could be,
you know, an hour or so. It could be
three, four, five hours. There’s just no
way of saying.
(T-403).
Martha Moore. Ms. Moore stated that the
Petitioner is her daughter’s father. (T-431). Ms. Moore
testified that she had previously met Samira Frasch,
and she said that Mrs. Frasch was “African.” (T-436).
Ms. Moore stated that she talked to the Petitioner a
couple of days before Mrs. Frasch died, and during the
conversation the Petitioner said that he was

27
“overwhelmed.” (T-441). Ms. Moore testified that the
Petitioner called her at approximately 8:30 a.m. on
February 22, 2014, and he indicated that he and his
children were on their way to her house, but she told
him that they could not come to her house because she
was out of town. (T-433-434, 443).
Dale Edward Folsom. Mr. Folsom, a fortytime convicted felon, stated that the Petitioner was his
cellmate at the county jail for approximately six
months. (T-454). Mr. Folsom claimed that during the
time that he was housed with the Petitioner, the
Petitioner told him that he hit Samira Frasch with a
golf club and then he “[t]hrowed her in the pool and
then ran.” (T-456-457). Mr. Folsom alleged that the
Petitioner also told him that he was “going to try to get
in touch with somebody” to “go steal” the golf clubs.
(T-459-460).

28
Jason Newlin. Mr. Newlin, an investigator
with the State Attorney’s Office, testified that he
previously met with Dale Edward Folsom and he
devised a plan whereby Mr. Folsom would be released
from the jail and the Petitioner’s jail calls would be
monitored to see if the Petitioner would contact Mr.
Folsom about attempting to obtain golf clubs from the
Frasch residence. (T-479). Mr. Newlin stated that his
plan did not work because the Petitioner got sick and
he was placed in the jail infirmary – where he could
not make any phone calls.

(T-480).

Mr. Newlin

testified that he subsequently obtained a search
warrant so that he could retrieve golf clubs from the
Petitioner’s residence, and he said that two golf clubs
were seized when the search warrant was executed.
(T-480-482).
Lisa Flannagan (recalled). Dr. Flannagan

29
was asked to examine a golf club that was previously
seized from the Frasch residence and, after looking at
the golf club, she was asked whether the golf club could
have been responsible for the injuries that Samira
Frasch received, but she responded “I don’t think so.”
(T-500). Dr. Flannagan added “I don’t see any features
that suggest that it was a golf club.” (T-500). Dr.
Flannagan stated that as part of her autopsy of Mrs.
Frasch, she conducted a toxicology test, and she said
that the result of the test indicted that Mrs. Frasch did
not have any alcohol in her system (which she said
indicated that either Mrs. Frasch had not recently
consumed alcohol at the time of her death or that the
alcohol had already metabolized in Mrs. Frasch’s
body). (T-501-502).10

10

Dr. Flannagan indicated that if Mrs. Frasch had

consumed alcohol as late as 4 a.m. on February 22, 2014, she

30
Christopher Corbitt. Mr. Corbitt, a sergeant
with the Tallahassee Police Department, testified that
he reviewed cell phone information relating to Samira
Frasch and the Petitioner. (T-507). Sergeant Corbitt
stated that the Petitioner’s records establish that he
made a call on his cell phone shortly after 8 a.m. on
February 22, 2014, and he said based on his review of
relevant cell site data (i.e., the cell site that the cell
phone was communicating with), he believed the
Petitioner was leaving the Golden Eagle subdivision at
the time of the call and traveling southbound. (T-519519). Sergeant Corbitt testified that a subsequent call
placed to the Petitioner’s cell phone at 9:45 a.m.
established that the Petitioner was traveling toward
the Panama City area. (T-524). Finally, Sergeant

would have expected to see the alcohol in the toxicology test
results). (T-502-503).

31
Corbitt stated that a call placed from the Petitioner’s
cell phone at 11:30 a.m. established that the Petitioner
was in Panama City.

(T-524).

During Sergeant

Corbitt’s testimony, the State played recordings of
voicemails that the Petitioner left on Samira Frasch’s
cell phone on February 22, 2014. (T-529-536, 590).
Jo Ellen Brown. Ms. Brown, a senior crime
laboratory analyst with the Florida Department of Law
Enforcement, testified that she analyzed several items
of evidence relating to this case. (T-557-558). Ms.
Brown stated that her analysis of the evidence
established the following: (1) the Petitioner’s DNA
matched semen found on Samira Frasch’s vaginal swab
and anal swab (T-564-565); (2) the Petitioner’s DNA
was found on Mrs. Frasch’s fingernail scrapings (T569); and (3) Mrs. Frasch’s DNA was found on the club
portion of one of the golf clubs. (T-580-581).

32
At the conclusion of Ms. Brown’s testimony, the
State rested. (T-590).
b.

The Petitioner’s Case in Chief.

Josh Hallock. Mr. Hallock stated in 2010, he
worked as a personal assistant (for approximately
eighteen months) for the Petitioner (i.e., babysitting
the children, packing for trips, driving, scheduling
trips, etc.). (T-599). Mr. Hallock testified that it was
common for the Petitioner to be in possession of large
amounts of cash: “at least $10,000 each time that he
would go to the bank, possibly multiple times a day.”
(T-600).

Mr. Hallock stated that the Petitioner

purchased a number of cars during the time that he
worked for him: “I would say at least one or two a
month, maybe more.” (T-600).
Matthew Christiansen.

Mr. Christiansen

stated that he lives in the Golden Eagle subdivision.

33
(T-605).

Mr. Christiansen testified that on the

morning of February 22, 2014, he and his daughter
went for a walk in the neighborhood between 10 a.m.
and 11 a.m. and he said that as they were walking past
the Frasch residence, he observed the following:
Q Okay. And when you walked by
between 10:25 and 10:45, did you see
anybody in the driveway of that house?
A We did.
Q And who did you see or what did
you observe?
A
I
sa w
a
w om a n ,
African-American, tall, dark hair, thin.
And the only reason that stuck out to me
was that was the first time I had actually
seen a person ever at that house. I have
always looked at the house because of the
cars, but now I saw an actual person
there so that’s why it stuck out as an
anomalous event to me compared to prior
walks.
Q And what was this person doing
when you observed her?

34
A It looked like she was putting
something into a vehicle and then
walking back towards her front door.
Q Okay. When you say tall,
African-American, thin, did – when we
describe that, would that be a model-like
figure or just somebody that’s anorexic?
A I would probably say model
figure. I’m thinking anorexic would be
more – bones and stuff would be more
visible.
Q Correct. Okay. And so how
long did you have an opportunity to
observe this individual?
A Several seconds, at most.
Q Did she have –
A It’s not as though I’d stared.
Q – black hair?
A Huh?
Q Dark hair? Black hair?

35
A Black hair, dark.
(T-608-609).11 Mr. Christiansen stated that he was
later interviewed by law enforcement officials and he
said that he told them what he had observed on his
walk. (T-610). Mr. Christiansen testified that “I’m 100
percent sure that I saw a woman in front of that house
during that time frame.” (T-610). Mr. Christiansen
clarified that in February of 2014, he did not know the
Petitioner (and had not met him since), and he said
that he has never met anyone that lived at the Frasch
residence. (T-620).
Jonathan Arden.

Dr. Arden, a forensic

pathologist, testified that he reviewed several
documents relating

to

Samira

Frasch’s death,

including Dr. Lisa Flannagan’s autopsy report. (T-

11

The record establishes that Samira Frasch is 5'7"-½ and

she weighed approximately 120 pounds. (T-500).

36
654). Dr. Arden opined that the cause of Mrs. Frasch’s
death was drowning. (T-660). Dr. Arden testified that
based on the absence of any wrinkling/pruning on Mrs.
Frasch’s fingers and toes, and the absence of any rigor
mortis and liver mortis, Mrs. Frasch was immersed in
the water “for a relatively short period of time.” (T667). Dr. Arden further opined that Mrs. Frasch died
“most probably within an hour or two [from] when she
was discovered,” and that it was possible that she was
deceased as little as thirty minutes before she was
discovered. (T-668). Finally, Dr. Arden opined that
“the greatest probability is that she died after 8 a.m.”
(T-668).
At the conclusion of Dr. Arden’s testimony, the
defense rested. (T-705).
c.

The State’s Rebuttal.

Bill Revell (recalled). Detective Revell stated

37
that he conducted two interviews with Matthew
Christiansen in February of 2014 and he said that Mr.
Christiansen told him during the interviews that he
observed

a

woman

matching

Samira

Frasch’s

description loading items in a dark SUV that was
parked in the driveway of the Frasch residence. (T706-708). Detective Revell claimed that during the
first interview, Mr. Christiansen said that the woman
was wearing red pants, and he said that during the
second interview, Mr. Christiansen said the woman
was wearing white pants. (T-707).
Tony Geraldi. Mr. Geraldi, a sergeant with the
Leon County Sheriff’s Office, testified that he followed
up on the information provided to his office by
Matthew Christiansen by looking at surveillance video
from the gated community of Golden Eagle and looking
for red pants. (T-710-711). Sergeant Geraldi stated

38
that of all of the black SUVs observed on the
surveillance video during the time frame in question,
only three either exited and reentered or entered and
exited, and he said that all three of those SUVs
belonged to residents of Golden Eagle. (T-711-712).
Sergeant Geraldi testified that he reviewed the “search
warrant footage” taken by law enforcement officials
and he could not locate any red pants. (T-710-711).
On

cross-examination,

Sergeant

Geraldi

admitted that he did not go into the house to look for
the red pants. (T-712). Sergeant Geraldi was then
shown a picture of the master bedroom of the Frasch
residence (Defense Exhibit 6), and Sergeant Geraldi
acknowledged that there was a red item depicted in the
picture, but he said that he was not sure whether the
item was an “article of clothing.” (T-713).
Jason Newlin (recalled).

Mr. Newlin

39
confirmed that the Petitioner did not make any calls
from the jail infirmary during the time period from
when Dale Edward Folsom was released from jail
(February 11, 2015) to the time that the search
warrant was conducted and the golf clubs were found
(February 13, 2015). (T-716-717).
At the conclusion of Mr. Newlin’s testimony, the
State rested. (T-720).

40
H. REASON FOR GRANTING THE WRIT
The question presented is important and
the Florida appellate court’s decision in this case
is in conflict with federal circuit court decisions
as to whether a criminal defendant is entitled to
an evidentiary hearing to determine if a
violation has occurred pursuant to Brady v.
Maryland, 373 U.S. 83 (1963).
The question presented in this case is as follows:
Whether a criminal defendant is
entitled to an evidentiary hearing to
determine whether a violation has
occurred pursuant to Brady v. Maryland,
373 U.S. 83 (1963).
The Petitioner requests the Court to grant his
certiorari petition and thereafter consider this
important question. As explained below, the Florida
appellate court’s decision in this case is in conflict with
federal circuit court decisions as to whether a criminal
defendant is entitled to an evidentiary hearing to
determine if a violation has occurred pursuant to
Brady.

41
Immediately, after the jury returned its guilty
verdict in this case, the trial court announced that it
intended to proceed with the sentencing hearing
because life imprisonment was the mandatory/required
sentence (i.e., the trial court had no discretion to
impose any sentence other than life imprisonment).
(A-30-31).12

The prosecutor then announced that

Samira Frasch’s family wanted to make a statement
prior to the trial court imposing the sentence and the
prosecutor proceeded to read the following statement
from Mrs. Frasch’s family:
THE COURT: All right. Either
side have anything they wish to say? We
will need a scoresheet from you, Ms.
Cappleman, although I know it won’t
accomplish much, you can submit that to
me later.

12

Prior to trial, the State announced that it was not

seeking the death penalty in this case.

42
MS. CAPPLEMAN:
Yes, sir.
There is a statement that the family has
submitted that they would like read at
the sentencing.
THE COURT: Well, you may.
MS. CAPPLEMAN: The family
wanted to make the following statement:
For us, the Frasch – well, it says,
For us, the Samira family, we hold Adam
responsible for the death of Samira.
According to Samira, she was very afraid
that Adam would hurt her, because she
had noticed the presence of someone
prowling in their home nights before his
(sic) death.
As Adam came to see the house,
certainly she had to tell him her fears.
So, why did Adam not do anything to
avoid the worst? At least he would have
checked the surveillance cameras in their
home.
Why was Samira not with him on
the day of her death when they went to
the beach? Samira would not have
accepted that Adam was busy. We all
know that Adam had abducted their two
girls and left with his mistress, so why
the day of her death did Adam supposedly
meet Martha en route before going to the
beach?
Samira’s body was found in the

43
pool. Certainly, it does not – it was not
there to swim that day if she would part
with her children and her husband at the
beach. Why did Adam rush to cremate
the body of Samira?
There are so many that lead us to
say that Adam is responsible for the
murder of Samira. Whether he murdered
her or he is the sponsor. And we are
certain that he could never take care of
the two daughters he had with Samira.
So I apologize for that, but,
obviously, there’s a language barrier
here, so I think that’s the best we can do
on the translation.
(A-32-34) (emphasis added).
Following the trial, defense counsel filed a
timely motion for a new trial and argued the following:
3.
New and material evidence,
which if disclosed to the defense, would
have been introduced at trial and
resulted in a different verdict. This
evidence could not, with reasonable
diligence, been discovered by the defense
prior to trial.
4.
The
new evidence
complained of in Paragraph 3 above,
constitutes Brady material and should
have been disclosed to the defense prior

44
to being read into the record post verdict,
and after the jury had been discharged.
....
9.
At the conclusion of the case,
after the return of the verdict, the
discharge of the jury and just before
sentencing, the State asked to read into
the record a “family” statement. No
name was attributed to the author(s) of
this statement, a copy of which is
attached hereto, marked Exhibit A, and
incorporated herein by reference.13 No
one on the defense team knew of this
statement before it was read, and no one
on the defense team was aware of the
contents of the statement before it was
read.
10.
That statement alleges there
had been an “someone prowling in their
home nights before his (sic) death.” The
statement then suggests ADAM FRASCH
should have “At least ... checked the
surveillance cameras in their home.”
This may well be a Brady violation
13

The attachment to the motion for a new trial was the

excerpt from the sentencing hearing transcript where the
statement was read – not the actual statement.

The actual

statement was not disclosed by the State to the defense.

45
of significant import to the defense in this
case. Questions must be answered: Who
wrote the statement? When was the
State aware of the statement? Had
anyone with the prosecution team
(including SAO, LCSO, FDLE personnel)
spoken with the deceased family
regarding this issue, and if so, when?
Defendant submits an evidentiary
hearing is necessary in this situation,
pursuant to Rule 3.600(c) Fla. R. Crim. P.
11.
The defense is reviewing
hundreds of pages of discovery reports to
see if there is any reference to this family
“concern” regarding prowlers.
The
defense cannot complete a thorough
review at this time, and will supplement
this filing if evidence surfaces as to any
prowler reports.
12.
Since the State effectively
argued in closing there could be no other
perpetrator of this crime, but for the
Defendant, and had filed a motion in
limine seeking to preclude the defense
from suggesting otherwise (as to certain
named parties), it is clear the issue of
“some other guy did it” was critical to this
case.
A new trial is warranted, and
Defendant so moves.
(A-38-44) (footnote added). The trial court denied the

46
motion for a new trial without first holding an
evidentiary hearing on the motion. (A-46). For the
reasons expressed below, the Petitioner submits that
the trial court erred by denying the motion for a new
trial without first holding an evidentiary hearing.
In the motion for a new trial, the Petitioner
asserted that the “family statement” read at the
conclusion of the trial amounted to “new evidence” that
the defense team was not aware of prior to the
statement being read in court. The Petitioner also
alleged in the motion for a new trial that the “family
statement” amounted to favorable evidence that the
State failed to disclose to the defense in violation of
Brady.

The due process clauses of the Fifth and

Fourteenth Amendments, as interpreted by the Court
in Brady and its progeny, require the prosecution to
disclose exculpatory evidence that “is material either

47
to guilt or to punishment.” Brady, 373 U.S. at 87.
“Under Brady, the prosecutor has a duty to make
available to the defense exculpatory evidence,
including evidence useful for impeachment, possessed
by the prosecution team or its agents.”

Lopez v.

Massachusetts, 480 F.3d 591, 594 (1st Cir. 2007). In
order to establish a Brady violation, a defendant must
show that (1) the evidence was favorable to the
defense, either exculpatory or for impeachment
purposes, (2) the State suppressed the evidence, either
willfully or inadvertently, and (3) the defendant was
prejudiced by the suppression of the evidence. See
State v. Huggins, 788 So. 2d 238, 242 (Fla. 2001).
Based on the record in the instant case, the
Petitioner has made a prima facie allegation that the
“family statement” amounts to “new evidence” and/or
Brady material.

Regarding the new evidence

48
allegation, the Petitioner specifically alleged that the
“family statement” was both “new evidence” and was
“material.” (A-42) (“No one on the defense team knew
of this statement before it was read, and no one on the
defense team was aware of the contents of the
statement before it was read.”); (A-43-44) (“Since the
State effectively argued in closing there could be no
other perpetrator of this crime, but for the Defendant,
and had filed a motion in limine seeking to preclude
the defense from suggesting otherwise (as to certain
named parties), it is clear the issue of ‘some other guy
did it’ was critical to this case.”). Regarding the Brady
allegation, the Petitioner specifically alleged that the
evidence was favorable to the defense and that the
Petitioner was prejudiced by the suppression of the
evidence (based on passages quoted above), and the
record is clear that the State suppressed the evidence

49
because the State was in possession of the evidence
immediately following the jury’s verdict.14
Thus, because the Petitioner stated a facially
sufficient and prima facie Brady claim, an evidentiary
hearing was required to resolve this matter. The trial
court, however, denied the Petitioner’s Brady claim
without first holding an evidentiary hearing. In its
order, the trial court simply stated:
The third (Brady) claim is the only
new issue. The Court sees no reason to
conduct an evidentiary hearing. The
defense cites an off hand comment in a
very confused, rambling dissertation from
some “family member.” The statement
was a rough translation. It is unlikely
that the “family member” even resides in
the United States and, therefore, is not
even available to be subpoenaed. There
is nothing suggesting there is undisclosed

14

The fact that the State had the “family statement”

translated certainly suggests that the State had been in
possession of the statement for some period of time.

50
information that would have resulted in
a different verdict.
(A-47).
There are several assertions in the trial court’s
order that cannot be confirmed without holding a
hearing. First, the trial court stated in the order that
the “family statement” was a “rough translation.” At
this stage of the proceedings, the State has not
disclosed the actual statement and no one has had a
chance to verify the accuracy of the State’s translation.
It is certainly possible (if not likely) that the State’s
translation was accurate (meaning that it was not a
“rough” translation).

But without a hearing (and

without the actual statement being disclosed to the
defense and entered into the court file as an exhibit),
no conclusion can be drawn as to whether the
statement read by the State during the sentencing

51
hearing was a “rough translation.” Second, the trial
court asserted that “[i]t is unlikely that the ‘family
member’ even resides in the United States and,
therefore, is not even available to be subpoenaed.”
Based on the current record, there is no indication as
to who wrote the statement, and certainly no
indication as to whether that person lives in the
United States and/or could be subpoenaed or would be
available to appear in court. These are matters that
can only be resolved after an evidentiary hearing.
Lastly, the trial court stated – without analysis or
elaboration – that “[t]here is nothing suggesting there
is undisclosed information that would have resulted in
a different verdict.”

Contrary to the trial court’s

assertion, the Petitioner has made a prima facie
showing that the undisclosed information is “material.”
This was an extremely close case, and an eyewitness

52
identified Mrs. Frasch alive at the house after the
Petitioner had already left town. Evidence that Mrs.
Frasch had told a family member that she noticed the
presence of someone prowling in their home nights
before her death was consistent with – and would have
supported – the Petitioner’s theory of defense that he
did not commit the murder and that someone else did.
Clearly this is the type of “material” allegation that
warrants further consideration at an evidentiary
hearing.
Several federal circuit courts have considered
similar allegations and concluded that a defendant is
entitled to an evidentiary hearing to resolve factual
questions as to whether a Brady violation has
occurred. For example, in United States v. Perdomo,
929 F.2d 967, 973-974 (3d Cir. 1991), the Third Circuit

53
Court of Appeals stated the following:
Although appellant has made a
very persuasive showing that a Brady
violation did occur, we will nevertheless
remand for an evidentiary hearing. We
think that there are several factual
questions that should be determined
before the issue can finally be resolved.
This court has previously recognized that
“where a factual question is raised as to
whether a Brady violation occurred, the
defendant is ‘entitled to have it
determined by the district court in a
hearing appropriate to the factual
inquiry.’” Gov’t of Virgin Islands v.
Martinez, 780 F.2d 302 (3d Cir. 1985)
(quoting United States v. Alexander, 748
F.2d 185, 193 (4th Cir. 1984)). In
Martinez, after considering an appeal of a
conviction for first degree murder, we
remanded for an evidentiary hearing
where evidence that defendant sought to
have disclosed presented a reasonable
probability that a jury could have found
that he acted in self-defense.
We
reasoned:
[w]here the submission of
written affidavits raises
genuine issues of material
fact and where, as here, the
Brady claims are neither

54
frivolous nor palpably
incredible, an evidentiary
hearing should be
conducted.
Id. (quoting
United States v. Dansker,
565 F.2d 1262 (3d Cir.
1977)).
In the case at hand, the district
court’s consideration of the motion for a
new trial during the sentencing hearing
did not rise to the level of an evidentiary
hearing that is required when a credible
Brady claim has been raised. Certain
pieces of key information were not before
the district court or were not adequately
considered at the time of hearing. For
example, Soto’s complete criminal record
was not considered because the criminal
history had not been compiled at the time
that the hearing was conducted;
appellant has raised questions as to the
complicity of the Narcotics Strike Force
agents in a possible cover-up of Soto’s
criminal background; the effect of the
undisclosed information on the outcome
at trial was never actually considered;
and appellant asserts that there is no
evidence, beyond the prosecution’s
statements at the sentencing hearing, as
to whether an NCIC search was, in fact,
actually conducted.
We agree with
appellant that an evidentiary hearing is

55
necessary to resolve these unanswered
questions. Once these questions are
resolved, the court will be able to consider
the proper measures to be taken to
remedy the violation of Perdomo’s right to
due process of law including the award of
a new trial or other appropriate relief.
(Emphasis added).

Similarly, in United States v.

Salem, 578 F.3d 682, 685-686 (7th Cir. 2009), the
Seventh Circuit Court of Appeals held:
Brady requires the government to
disclose evidence materially favorable to
the accused.
Youngblood v. West
Virginia, 547 U.S. 867, 869 (2006); Brady,
373 U.S. at 87. That obligation extends
to evidence that tends to impeach a
government witness. Youngblood, 547
U.S. at 869; United States v. Bagley, 473
U.S. 667, 676 (1985). Failure to disclose
such evidence, whether intentional or
inadvertent, can entitle the accused to a
new trial. Strickler v. Greene, 527 U.S.
263, 281-282 (1999).
The Brady
obligation applies even when the
suppressed evidence is known only to
police and not to prosecutors.
Youngblood, 547 U.S. at 869-870.
The evidence of the Sotelo
homicide was not disclosed prior to trial

56
(the government does not contend that it
only learned of this matter after trial)
and was arguably favorable to Salem. So
Brady’s requirement that the undisclosed
evidence be materially favorable to the
accused is central to this case. The
district court found the Sotelo homicide
evidence immaterial. That’s a decision
we review for abuse of discretion. United
States v. Palivos, 486 F.3d 250, 255 (7th
Cir. 2007).
Evidence is material “if there is a
‘reasonable probability’ that, had the
evidence been disclosed to the defense,
the result of the proceeding would have
been different.” Youngblood, 547 U.S. at
870 (quoting Strickler, 527 U.S. at 280);
see also Kyles v. Whitley, 514 U.S. 419,
433-434 (1995). Of course, this means
that only admissible evidence can be
material, for only admissible evidence
could possibly lead to a different verdict.
United States v. Silva, 71 F.3d 667, 670
(7th Cir. 1995).
To demonstrate a
“reasonable probability,” Salem must
show that the government’s nondisclosure
“undermine[d] confidence in the verdict.”
Kyles, 514 U.S. at 435.
What troubles us about this case is
that it appears Salem never had a
sufficient opportunity to make that
showing. Without an evidentiary hearing,
we’re left wondering what other evidence

57
about Lopez’s involvement in the Sotelo
homicide is out there. Cf. United States v.
Dimas, 3 F.3d 1015, 1018 (7th Cir. 1993)
(discussing need for evidentiary hearing
where record was inadequate to decide
Brady issue). From Martinez’s plea
agreement, it appears Lopez gave a
reasonably detailed statement about the
murder, and it implies that the statement
was given to law enforcement. And
presumably the federal government
considers it to be reasonably reliable –
the same Office of the United States
Attorney that prosecuted Salem included
a description of Lopez’s statement in the
Martinez plea agreement, asserting that
it was part of the facts that the
government could introduce at a trial of
Martinez to prove his guilt of
gang-related crimes beyond a reasonable
doubt. Yet, neither Salem nor the district
court has ever seen that statement.
Should there in fact be such a statement,
it could seriously undermine Lopez’s
credibility.
(Emphasis added).

If the standards set forth in

Perdomo and Salem had been applied to the
Petitioner’s case, the Petitioner would have been
afforded an evidentiary hearing. As in Perdomo and

58
Salem, in this instant case, (1) there are several factual
questions that should be determined before the
Petitioner’s Brady claim can finally be resolved, (2)
certain pieces of key information were not before the
trial court and/or were not adequately considered, (3)
an evidentiary hearing is necessary to resolve these
unanswered questions, and (4) the Petitioner has never
had a sufficient opportunity to make a showing that a
Brady violation occurred.
By accepting review of this case, the Court will
have the opportunity to resolve the split between the
decision below and the federal circuit courts. Clearly
there is a need for the Court to clarify the standard for
determining when an evidentiary hearing is required
to resolve factual questions as to whether a Brady
violation has occurred.
Accordingly, the Petitioner respectfully requests

59
the Court to grant the instant petition.

60
I. CONCLUSION
The Petitioner requests that the Court grant the
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

